                        ADVISORY MEMORANDUM REPORT

             ON SBA’S CLOSING PACKAGE INTRAGOVERNMENTAL

                              ACTIVITY AND BALANCES



                   ADVISORY MEMORANDUM REPORT NO: 6-06

                                  DECEMBER 2, 2005




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of the Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                            ADVISORY MEMORANDUM
                                                                   REPORT
                                                          Issue Date: December 2, 2005
                                                          Number: 6-06



To:            Thomas A. Dumaresq
               Chief Financial Officer

               /S/ original signed
From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Agreed-upon Procedures Report on SBA’s Closing Package Intragovernmental
               Activity and Balances

            We contracted with the independent certified public accounting firm of Cotton &
Company LLP (Cotton) to perform procedures agreed-upon by the Department of Treasury’s
Financial Management Service (FMS), the Government Accountability Office (GAO) and the
Office of Management and Budget (OMB) on the Small Business Administration’s (SBA)
closing package intragovernmental activity and balances. Attached is Cotton’s report on the
results of these procedures. Cotton identified five items as a result of these procedures, which
are explained in further detail in their report.

           This report is intended solely for the information and use of FMS, GAO, and OMB
and should not be used by those who have not agreed to the procedures and taken responsibility
for the sufficiency of the procedures for their purposes.

           The Office of the Chief Financial Officer (OCFO) reviewed Cotton’s draft of the
agree-upon procedures report and agreed with the results. The OCFO was pleased to further
note that the results reflected a substantial improvement from the prior year’s review.

       Should you or your staff have any questions, please contact Jeff Brindle, Director,
Information Technology and Financial Management Group at (202) 205-[FOIA Ex. 2].

Attachment
                                                                  ClWurn b. C . 0 1 ~ 1 ) LU
                                                                                          '
                                                                  635 SSaters Lane
                                                                  4 h k
                                                                               VA 22314




hspmtor Gmm& U.S.S            d Business A d m i n i i o n

 We have @mdthe procedures described in Attachment I, which were agreed to by the Department of
 ibe Treasury's Finencia1 Management Service (F'h4S), the U. S. Government Acwuntability Office
* - - . I w a d                                Budget ( O M ) as stated in the F'MSAgency Reporting
                                                             --------


 R e q h m f o r the Financial Report of the United States Government guidance, s o m y t o i i s t F M S i K
 the p r e p d o n of, and GAO in the audit of the consolidated financial statements of the U.S.Government
 as of and for the year ended September 30,2005. The U.S.Small Business Administration's management
  is respmible far the proper accounting,presentation and reporting of its consolidated financial
  statements.andreporting of information to FMS.

 This aped-tpan procedures engagement was conducted in accordance with attestation standards
 d i i s b e d by the American Institute of Certified Public Accountants and the Government Auditing
 B&&,          issued by the Comptroller General of the United Stabs. The sufficiency of these procedures is
 solely tbe responsibility of FMS, GAO and OMB.Consequently, we make no representations r e g d i g
 the sufficiency of the procedures described in Attachment I either for the purpose for which this report
 has been requested or for any other purpose. The procedures we performed and our associated findings
 are presented in Attachment I.

    We were not mgaged to, and did not perForm an audit of the matters addressed herein, the objective of
    which would be the expression of an opinion on such information. Accordingly, we do not express w h
    m opisim Had we performed additional procedures, other matters might have come to our attention that
    would Irwe been reported to you.

    This report is intended solely for the information and use of the U.S. Small Business Administration,
    OMB, FMS and GAO and is not intended to be, and should not be, used by those who have not agreed to
    the produres and taken responsibility for the sufficiency of the procedures for their purposes.




L
    Charles Hayward, CPA
                                                       :appayDs sa!1!1!qv!7
    puv slassp.~vjuaururano3vrlu1uo!ivurroJu~cCAvjuauralddn~      par!nbaa
  ayl p m I~aflpa~
                 p a u a %s , v ~ fp
                                   s a p p o w 'tualsXs t7urpodax p p ~ 3 u ! . ~
ap!~-)uatrraranof_Buom a x r a ~ a p!JaImmxl
                                       ~ ~ ~ p %U!MOIIOJ ayl pmoj a M
                                                                                                            (saanqrr(~pnrr ~ ! A ! J ~ v~ r r ~ n a m u ~ a ~ o % t r q u ~
                                                                                     p a p a d JOJ s a ~ n p a a o ~a od d n paaJ87pr 31- lanuaw ~~!anrrn!d
                                                                                                      j JO SL*SOLP uo!~aasqns palqs s~namaqnbar
                                                                                        h n s r r a ~aq)
                                                                                         aqj OJ JajaJ asrrald) *SOOZ '2 Jaqmaaaa nrrq~.raJrrl on 0 ~ 3
                                                                                    pnrr ' S W ~'063 s,Lana%rraq9 03 's%u!pmj loqnoa IrrnJalV burr
                                                                                    JO sa!doa srr 11aM srr isaanrrlsa purr &!A!~Q       ~a~namn~aaolsqu~
                                                                                                         a%rryarrdltysol3 no J ~ o d a saa ~ n p a a o ~ nodn
                                                                                                                                                          d
                                                                                     - p a a ~ (%3) ~ IaJanaf) ~ o p a d s qu ~q JaAyaa
                                                                                                                                     ~      .aJnpaaoJd q3rra
                                                                                    30 no!jaldmoa aodn s8typm3 aqJ a3Ea!PnI :SNOIJ,3nXJ,SNI
                      s a a u u ~ pua
                                  a ~ &a!pv ~s)narun~aao%ar)u~
                                                          IuJapad JOJ v o d a ~
                                                                              sa~npaao~d        sooz 1 u 3 q
                                                                                      nodn-paa~%\r
                                                                   'C Jna~rlawlv
                                                             Attachment 1
                      Fiscal 2005 Agreed-Upon Procedures Report for Federal IntragovernmentalActivity and Balances



gmcedm 3
Compare hading partner activity/balances from                       For the reciprocal category/trdhg partner amounts which wen?reported h
intragovemmmtal RSI schedules in the agency's audited f m c i a l   SBA's intragove~nmentalRSI schedules, we identified the agency reporting
stavtenaents to the agency's Iktragovernmntal Closing Package       diffuences and compmed them to SBA's explanations dong with
vs. Quarter Submission Comparative Data Report and the              supporting documentation. The provided explanatiohs explain the r e p o w
Intragovernmental Closing Package Material DzjJerences/Status       differences and there are no discrepancies between the exphtions and the
of Disposition CertiJicationReport (Section I1 of the CFO           supporting documentation, with one exception. ($28.3 million which was
Representations). For items where agency reporting differences      reported as trading partner 99 (Treasury General Fund) as part of the 4&
exist, compare the explanations to supporting documentation and     quarter submission was reclassified to trading partner 20 (Department of
identify any discrepancies.                                         Treasury) in the closing package.) The explanations provided by SBA do
                                                                    not explain why this amount was reclassified.

                                                                    The total of SBA's differences as identified by Treasury per the
                                                                    Infragovernmental Closing Package v. 4th Quarter Submission
                                                                    Comparative Data Report is $10.6 million. This amount was less than 10%
                                                                    of SBA's total intragovernmental activity amount of $10.8 billion, in
                                                                    aggregate and by reciprocal category. Consequently, SBA was not required
                                                                    to explain the differences on the CFO representation section LE. SBA's
                                                                    response to this question should have been "No".

                                                                    SBA's intragovernmental RSI schedules do not agree to the Closing
                                                                    Package Material Dz~erencedStafus of Disposition Certification Report,
                                                                    because the single identified material difference occurs in a net position
                                                                    Federal line item and SBA was not required to present an RSI schedule for
                                                                    net position line items.

                                                                    The Intragovernmental Comparative Closing Pachge Explanation of
On November 29,2005, FMS will generate and distribute the           Di_$erencesReport identifies a single material trading ptutner/~ciprocal
Intragovermntal Comparative Closing Package Explanation of          category difference. This amount traced to SBA'a Closing Packas
Dflerences Report for intmgovemental activity/balances to           Material Dz~renc@s/Sta~us  of Disposition Cempcatioon Report which
agency Insptxtor Generals (IQs).                                    wntab SBA's qlanation for the diffm?nce, The mulb of our wodr are
                                                              Attachment 1
                        Fiscal 2005 Agreed-Upon Procedures Report for Federal Intragovernmental Activity and Balances

Agency IGsIauditors will use this report to:

    (1)    Compare the differences between the agency and its          (1) SBA incorrectly recorded $662.7 million under trading partner
           trading partners by reciprocal categoryfline-item               20 (Department of Treasury). It should have been recorded and
           from FMS' Intragovernmental Comparative                         reported under trading partner 99 (Treasury General Fund). This
           Closing Package Explanation of Dzflerences Report               discrepancy was identified by Treasury and SBA subsequently
           to explanations from the agency supporting                      corrected it.
           documentation. For items where agency reporting
           differences exist, compare the explanations to
           supporting documentation and identify any discrepancies.

   (2) Identify any inconsistencies in amounts or                      (2) There were no inconsistencies in the amounts or explanations
       explanations between FMS' Intragovernmental                         between FMS' Intragovernmental Comparative Closing Package
          Comparative Closing Package Explanations of                      Explanation of Dzrerences Report and SBA's supporting
          Dzfferences reports and the agency's supporting                  documentation.
          documentation.

   (3) In the event of non-reporting by trading partners, as           (3) The differences reported in the Intragovernmental Comparative
        indicated in the footer section of FMS'                            Closing Package Explanations of Dzrerences Report are not due to
        Intragovernmental Comparative Closing Package                      a non-reporting trading partner.
       Explanations of Dzflerences reports, identify whether
       the difference is due to a non-reporting partner and do
       not proceed further with the review of the differences.
